VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                      Inspection of 

                                                                    VA Regional Office 

                                                                    Roanoke, Virginia 





                                                                                    July 1, 2013
                                                                                    12-04456-232
             ACRONYMS AND ABBREVIATIONS

HVOC         Homeless Veterans Outreach Coordinator
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations:

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                  Report Highlights: Inspection of VA
                  Regional Office, Roanoke, VA

Why We Did This Review                            address Gulf War veterans’ entitlement to
                                                  mental health treatment. Further, staff did
The Veterans Benefits Administration              not provide adequate outreach to homeless
(VBA) has 56 VA Regional Offices                  veterans in the VARO’s area of jurisdiction.
(VAROs) and 1 Veterans Service Center             We could not fully assess the effectiveness
nationwide that process disability claims and     of these outreach activities because VBA
provide a range of services to veterans. We       needs performance metrics for its homeless
evaluated the Roanoke VARO to see how             veterans outreach program.
well it accomplishes this mission.
                                                  What We Recommend
What We Found
                                                  The VARO Director should implement a
Overall, VARO staff did not accurately            plan to ensure staff schedule medical
process 17 (28 percent) of 60 disability          reexaminations, enter suspense diaries in the
claims we reviewed. We sampled claims we          electronic record, and follow up to reduce
considered at higher risk of processing           temporary 100 percent disability evaluations
errors, thus these results do not represent the   as appropriate. The Director should ensure
overall accuracy of disability claims             staff review the accuracy of 709 temporary
processing at this VARO.                Claims    evaluations we provided at the end of this
processing lacked consistent compliance           inspection. Further, management should
with VBA procedures and is resulting in           implement a plan to ensure effective second
paying inaccurate and unnecessary financial       signature reviews of TBI claims and ensure
benefits.                                         staff provide outreach to homeless veterans
                                                  within the VARO’s area of jurisdiction.
Specifically, 14 of 30 temporary 100 percent
disability evaluations we reviewed were           Agency Comments
inaccurate.     Errors in processing the
temporary evaluations generally occurred          The VARO Director concurred with our
because VARO staff did not schedule               recommendations. Management’s actions
medical reexaminations, enter suspense            are responsive and we will follow up as
diaries in the electronic record to ensure        required.
reminders to schedule the reexaminations, or
take actions to reduce benefits as
appropriate. Additionally, management did
not provide effective oversight of
second signature reviews and therefore
incorrectly processed 3 of 30 traumatic brain
injury (TBI) claims.                                        LINDA A. HALLIDAY
                                                         Assistant Inspector General
VARO managers ensured Systematic                         for Audits and Evaluations
Analyses of Operations were complete and
timely. However, staff did not always

                                                                                              i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 
Results and Recommendations ........................................................................................................2
 
     I. 	     Disability Claims Processing ............................................................................................2
 
              Finding 1           Roanoke VARO Could Improve Disability Claims Processing 

                                  Accuracy ......................................................................................................2
 
                                  Recommendations........................................................................................7
 
     II.      	Management Controls .......................................................................................................9

     III.	 Eligibility Determinations...............................................................................................10

              Finding 2	          Gulf War Veterans Did Not Always Receive Entitlement Decisions for 

                                  Mental Health Treatment ...........................................................................10

     IV. Public Contact .................................................................................................................11

              Finding 3           Oversight of Homeless Outreach Program Needs Improvement ...............11

                                  Recommendation .......................................................................................12
 
Appendix A                        VARO Profile and Scope of Inspection .....................................................13
 
Appendix B                        Inspection Summary ..................................................................................15
 
Appendix C                        VARO Director’s Comments.....................................................................16
 
Appendix D                        Office of Inspector General Contact and Staff Acknowledgments ...........21
 
Appendix E                        Report Distribution ....................................................................................22
 




                                                                                                                                                 ii
                                                                 Inspection of VARO Roanoke, VA




                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Division contributes to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Scope of            In November 2012, we inspected the Roanoke VARO. The inspection
Inspection          focused on the following four protocol areas: disability claims processing,
                    management controls, eligibility determinations, and public contact. Within
                    these areas, we examined two high-risk claims processing areas: temporary
                    100 percent disability evaluations and traumatic brain injury (TBI) claims.
                    We also examined three operational activities: Systematic Analysis of
                    Operations (SAOs), Gulf War veterans’ entitlement to mental health
                    treatment, and the homeless veterans outreach program.

                    We reviewed 30 (4 percent) of 739 rating decisions where VARO staff
                    granted temporary 100 percent disability evaluations for at least 18 months.
                    This is generally the longest period a temporary 100 percent disability
                    evaluation may be assigned without review, according to Veterans Benefits
                    Administration (VBA) policy. We examined 30 (40 percent) of 75 disability
                    claims related to TBI that VARO staff completed from July through
                    September 2012.

Other               	 Appendix A includes details on the VARO and the scope of our
Information            inspection.
                     Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                     Appendix C provides the VARO Director’s comments on a draft of this
                       report.

VA Office of Inspector General                                                                1
                                                                         Inspection of VARO Roanoke, VA




                    RESULTS AND RECOMMENDATIONS
                    I. Disability Claims Processing
Claims              The OIG Benefits Inspection team focused on accuracy in processing
Processing          temporary 100 percent disability evaluations and TBI claims. We evaluated
Accuracy
                    these claims processing issues and assessed their impact on veterans’
                    benefits.

Finding 1 	         Roanoke VARO Could Improve Disability Claims Processing
                    Accuracy

                    The Roanoke VARO did not consistently process temporary 100 percent
                    disability evaluations and TBI cases accurately. Overall, VARO staff
                    incorrectly processed 17 of the 60 disability claims we sampled, resulting in
                    129 improper monthly payments to 6 veterans totaling $186,929 ranging
                    from April 2008 until November 2012.

                    We sampled claims related to specific conditions we considered at higher
                    risk of processing errors. As a result, the errors identified do not represent
                    the universe of disability claims processed at this VARO. As reported by
                    VBA’s Systematic Technical Accuracy Review program as of
                    September 2012, the overall accuracy of the VARO’s compensation
                    rating-related decisions was 81.3 percent—5.7 percentage points below
                    VBA’s target of 87 percent. This program information was not reviewed
                    during the scope of this inspection.

                    The following table reflects the errors affecting, and those with the potential
                    to affect, veterans’ benefits processed at the Roanoke VARO.

Table 1
                                 Roanoke VARO Disability Claims Processing Accuracy
                                                                      Claims Inaccurately Processed

                           Type of Claim        Reviewed      Affecting       Potential To
                                                              Veterans’      Affect Veterans’     Total
                                                               Benefits          Benefits
                      Temporary 100 Percent
                                                   30             5                  9                14
                      Disability Evaluations
                      Traumatic Brain Injury
                                                   30             1                  2                 3
                      Claims
                      Total                        60             6                 11                17
                      Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid at
                      least 18 months or longer and TBI disability claims completed in the fourth quarter
                      FY 2012



VA Office of Inspector General                                                                             2
                                                                   Inspection of VARO Roanoke, VA




Temporary           VARO staff incorrectly processed 14 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a service-connected disability following a veteran’s
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, including confirmed and
                    continued evaluations where rating decisions do not change veterans’
                    payment amounts, VSC staff must input suspense diaries in VBA’s
                    electronic system. A suspense diary is a processing command that
                    establishes a date when VSC staff must schedule a reexamination. As a
                    suspense diary matures, the electronic system generates a reminder
                    notification to alert VSC staff to schedule the reexamination.

                    Without effective management of these temporary ratings, VBA is at risk of
                    paying inaccurate financial benefits. Available medical evidence showed
                    5 of the 14 processing errors affected veterans’ benefits and resulted in
                    116 improper monthly overpayments payments to 5 veterans totaling
                    $184,562, from as early as April 2008 until November 2012. The most
                    significant overpayment occurred when VARO staff did not schedule a
                    medical reexamination for a veteran’s cancer condition. As a result, VA
                    continued processing monthly benefits and ultimately overpaid this veteran a
                    total of $90,018 over a period of 4 years and 3 months.

                    The remaining 9 of the 14 errors had the potential to affect veterans’
                    benefits. We could not determine whether the evaluations would have
                    continued because the veterans’ claims folders did not contain the medical
                    examinations reports needed to evaluate each case. Where routine future
                    medical reexaminations were not scheduled as required, claims processing
                    delays ranged from 1 year and 5 months to 8 years. An average of 3 years
                    and 10 months elapsed from the time staff should have scheduled these
                    medical examinations until November 2012.

                    Summaries of the 14 total errors identified follow.

                    	 Five errors occurred when staff did not schedule medical reexaminations
                       after receiving or cancelling reminder notifications to do so.
                    	 Four errors occurred when staff did not establish suspense diaries in the
                       electronic record, thereby removing the possibility that staff would
                       receive reminder notifications to schedule medical reexaminations.
                    	 Four errors occurred when staff did not take final action to reduce
                       benefits after notifying veterans of the intent to do so. On average,
                       approximately 3 months elapsed from the time staff should have reduced

VA Office of Inspector General                                                                  3
                                                                   Inspection of VARO Roanoke, VA




                        the benefits until November 2012.        The delays ranged from 1 to
                        5 months.
                    	 One error occurred when a Rating Veterans Service Representative
                       (RVSR) prematurely determined a veteran’s medical condition was
                       permanently disabling without any medical evidence to support that
                       conclusion. Had we not identified this case during our inspection,
                       VARO staff may not have been alerted to take action to schedule a
                       required mandatory reexamination to determine the residual disabilities
                       associated with the temporary medical condition.

                    In November 2009, VBA provided refresher guidance to VARO staff about
                    the need to input suspense diaries to the electronic record to provide
                    reminders to schedule medical reexaminations. However, VARO managers
                    had no oversight procedures in place to ensure VSC staff established
                    suspense diaries and scheduled reexaminations timely.           Temporary
                    100 percent disability evaluations could have continued uninterrupted over
                    the veterans’ lifetimes if we had not identified the need for VARO staff to
                    take actions to schedule reexaminations.

                    Additionally, VARO managers did not have oversight in place to ensure staff
                    reduced benefits payments to veterans in a timely manner after advising them
                    of the intent to do so. Management also did not ensure staff complied with a
                    local policy requiring them to closely monitor and take appropriate follow-up
                    actions on benefit reduction cases. Managers stated staff did not complete
                    actions on benefits reductions because the VARO diverted efforts to support
                    other national production goals. As a result, veterans may be at risk of
                    receiving inaccurate benefits payments.

Actions Taken       In response to a recommendation in our national report, Audit of 100 Percent
in Response         Disability Evaluations (Report No. 09-03359-71, dated January 24, 2011),
to Prior Audit
Report
                    the then-Acting Under Secretary for Benefits agreed to review all temporary
                    100 percent disability evaluations and ensure each had a future examination
                    date entered in the electronic record. Our report stated, “If VBA does not
                    take timely corrective action, they will overpay veterans a projected
                    $1.1 billion over the next 5 years.” The then-Acting Under Secretary for
                    Benefits stated in response to our audit report that the target completion date
                    for the national review would be September 30, 2011.

                    However, VBA did not provide each VARO with a list of temporary
                    100 percent disability evaluations for review until September 2011. VBA
                    subsequently extended the national review deadline to December 31, 2011,
                    and then June 30, 2012, and then again to December 31, 2012. We remain
                    concerned about the lack of urgency VBA demonstrated in completing this
                    review, which is critical to minimize the financial risks of making inaccurate
                    benefits payments. To date, our national audit recommendation for VBA to

VA Office of Inspector General                                                                   4
                                                                   Inspection of VARO Roanoke, VA




                    review all temporary 100 percent disability evaluations remains open. We
                    do not intend to close this recommendation to VBA until our inspection
                    results show a significant decrease in the types of errors identified during our
                    national audit.

                    During this 2012 inspection, we followed up on VBA’s national review of its
                    temporary 100 percent disability evaluation processing. We sampled
                    40 cases from the lists of cases needing corrective actions that VBA provided
                    to the Roanoke VARO for review. We determined VARO staff accurately
                    reported taking actions, such as inputting suspense diaries or scheduling
                    reexaminations, on all 40 cases. However, in comparing VBA’s national
                    review lists with our data on temporary 100 percent disability evaluations,
                    we found six cases involving prostate cancer that VBA had not identified.
                    We could not determine why VBA did not identify these cases; however, we
                    provided VA regional office officials the complete listing of 709 claims
                    needing their review before we left the VARO. This review is important
                    because the VARO is experiencing a high error rate processing claims in this
                    area. As a result, we will monitor this situation as VBA works to complete
                    its national review.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report
                    No. 11-00510-167, dated May 18, 2011), VBA agreed to develop and
                    implement a strategy for ensuring accurate TBI claims rating decisions. In
                    June 2011, the Under Secretary for Benefits provided guidance to VARO
                    Directors to implement a policy requiring a second signature on each TBI
                    case an RVSR evaluates until the RVSR demonstrates 90 percent accuracy in
                    TBI claims processing. The policy indicates second signature reviewers
                    come from the same pool of staff as those used to conduct local station
                    quality reviews.

                    VARO staff incorrectly processed 3 of 30 TBI claims we reviewed. One of
                    the processing errors affected a veteran’s benefits. In this case, an RVSR
                    used the same symptoms to evaluate TBI-related disabilities and a coexisting
                    mental disorder.     However, VBA policy prohibits using the same
                    manifestations or symptoms to evaluate different disabilities. As a result, the
                    veteran was overpaid approximately $2,367 over a period of 1 year and
                    1 month.



VA Office of Inspector General                                                                    5
                                                                   Inspection of VARO Roanoke, VA




                    The remaining two cases had the potential to affect veterans’ benefits.
                    Descriptions of these two cases follow.

                    	 An RVSR used an incomplete VA medical examination report to
                       evaluate disabilities related to a TBI. Specifically, the Disability Benefits
                       Questionnaire examination template requires the examiner to identify
                       residual disabilities of a veteran’s TBI; however, the VA examiner did
                       not complete this section of the medical report. VBA policy requires that
                       VARO staff return examination reports that are incomplete for rating
                       purposes to the examining facility for clarification. Neither VARO staff
                       nor we can ascertain all of the residual disabilities of a TBI without
                       adequate or complete medical evidence.
                    	 An RVSR established compensation benefits for a veteran without
                       evidence required by VBA policy to show the veteran had sustained a
                       TBI while on active duty. This error did not affect the veteran’s overall
                       combined monthly benefits; however, if left uncorrected, the error has
                       the potential to affect future benefits.

                    VARO staff complied with VBA’s policy requiring that TBI claims undergo
                    an additional level of review; however, in the three cases we identified as
                    having errors, the second-level reviewers also missed the errors.
                    Management stated the TBI claims processing errors we observed were due
                    to a lack of accountability in the second signature review process. Because
                    staff did not always recognize TBI errors when processing these claims,
                    veterans may not receive accurate benefits.

Follow-Up to        Our prior report, Inspection of the VA Regional Office Roanoke, VA (Report
Prior VA OIG        No. 09-01995-63, dated January 14, 2010), stated 13 of the total 28 TBI
Inspection          claims we reviewed had processing errors. The majority of the errors
                    occurred because RVSRs did not recognize and return insufficient VA
                    medical reports submitted by examiners who had used incorrect examination
                    worksheets. In response to our recommendations, the VARO Director
                    agreed to ensure RVSRs received training on identifying and returning
                    insufficient examinations, as well as to coordinate with medical staff to
                    ensure use of the most current examination worksheets. As a result, the OIG
                    closed these recommendations in June and September 2010.

                    During our November 2012 inspection, one of the three errors we identified
                    involved staff using an insufficient medical examination; however, the
                    majority of the claims folders we reviewed contained medical reports
                    sufficient for evaluating TBI disability claims. We concluded the VARO’s
                    corrective actions taken in response to our 2010 recommendations were
                    adequate.




VA Office of Inspector General                                                                    6
                                                                  Inspection of VARO Roanoke, VA




                    Recommendations
                    1.	 We recommend the Roanoke VA Regional Office Director develop and
                        implement a plan to ensure claims processing staff input suspense diaries
                        in the electronic record as required.

                    2.	 We recommend the Roanoke VA Regional Office Director develop and
                        implement a plan to ensure claims processing staff timely schedule
                        medical reexaminations when the reminder notifications are received.

                    3.	 We recommend the Roanoke VA Regional Office Director develop and
                        implement a plan to ensure claims processing staff take timely actions to
                        finalize reductions in benefits.

                    4.	 We recommend the Roanoke VA Regional Office Director develop and
                        implement a plan to review for accuracy the 709 temporary 100 percent
                        disability evaluations remaining from our inspection universe and take
                        appropriate actions.

                    5.	 We recommend the Roanoke VA Regional Office Director develop and
                        implement a plan to ensure effective second signature reviews of
                        traumatic brain injury claims decisions.

Management          The VARO Director concurred with our recommendations. Subsequent to
Comments            our inspection, Roanoke VARO staff began completing rating-related
                    decisions using the Veterans Benefits Management System-Rating
                    application. This system requires staff to enter a reexamination date or
                    declare a veteran’s disability as permanent, thereby ensuring suspense diaries
                    are input to the electronic record. An updated workload management plan
                    requires monthly reporting and assigns managers oversight responsibility for
                    ensuring staff schedule medical examinations timely after receiving reminder
                    notifications. On a biweekly basis, the VSC’s management analyst identifies
                    benefit reduction notifications with overdue suspense dates to ensure staff
                    take actions and finalize reductions as appropriate.

                    As recommended, VARO staff began a review of the 709 cases remaining
                    from the OIG’s inspection universe and took appropriate actions on 355 of
                    these cases. Management expects to complete reviews and necessary actions
                    for the remaining 354 cases by September 30, 2013. Additionally, to ensure
                    effective second signature reviews of TBI claims, QRT managers will review
                    at least one second signature review completed by QRT staff during their
                    regular monthly quality reviews.

OIG Response        The Director’s comments and actions are responsive to the
                    recommendations. However, we are concerned with the VARO’s assessment
                    that the majority of the 100 percent disability evaluations VBA identified for

VA Office of Inspector General                                                                  7
                                                               Inspection of VARO Roanoke, VA




                    VARO review were unnecessary since controls were already in place to
                    manage these cases. Our inspection results showed that despite these
                    controls, 9 of the 14 total errors in temporary 100 percent disability
                    evaluation processing occurred when staff did not timely schedule medical
                    examinations or follow up to reduce benefits as appropriate. As such, we
                    believe the additional review is warranted.




VA Office of Inspector General                                                             8
                                                                  Inspection of VARO Roanoke, VA




                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of SAOs. We also considered
Operations          whether VSC staff used adequate data to support the analyses and
                    recommendations identified within each SAO. An SAO is a formal analysis
                    of an organizational element or operational function. SAOs provide an
                    organized means of reviewing VSC operations to identify existing or
                    potential problems and to propose corrective actions. VARO management
                    must publish annual SAO schedules designating the staff required to
                    complete the SAOs by specific dates. The VSC Manager is responsible for
                    ongoing analysis of VSC operations, including completing 11 mandated
                    SAOs annually.

                    VARO management ensured SAOs contained thorough analyses using
                    appropriate data, identified deficiencies, and made recommendations for
                    improvements where appropriate. SAOs were also submitted by the required
                    due date. Management attributed success in this area to a unique tracking
                    schedule containing three interim due dates. By using interim due dates,
                    management allowed sufficient time to thoroughly review SAOs before their
                    final submission.

Follow-Up to        In our previous report, Inspection of the VA Regional Office Roanoke, VA
Prior VA OIG        (Report No. 09-01995-63, dated January 14, 2010), we found staff generally
Inspection          followed policy in completing the required SAOs. Our current inspection
                    results further indicate VARO staff consistently used adequate data to
                    support SAOs analyses and recommendations and submitted them timely
                    according to the annual schedule. As such, we made no recommendation for
                    improvement in this area.

                    Further, our 2010 inspection disclosed issues regarding a lack of adequate
                    space to store veterans’ claims files. In response to our recommendation,
                    VARO managers agreed to temporarily lease an off-site facility to store
                    40-60 percent of the VARO’s existing file cabinets as an interim solution
                    while management continued to search for a permanent storage remedy. In
                    June 2012, VA OIG closed this recommendation upon receiving a structural
                    analysis and a plan to reinforce the building girders. The Benefits Inspectors
                    observed that claims file storage in the VARO’s primary offices appeared
                    under control. However, we did not observe the management of claims
                    folder storage at VBA’s off-site temporary space. VBA had responded to the
                    recommendation in our 2010 report by temporarily relocating claims folders
                    previously stacked on top of file cabinets to an alternate location while
                    Government Services Administration renovates the permanent workspace.



VA Office of Inspector General                                                                  9
                                                                  Inspection of VARO Roanoke, VA




                    III. Eligibility Determinations
Entitlement to      Gulf War veterans are eligible for medical treatment for any mental disorder
Medical             they develop within 2 years of the date of separation from military service.
Treatment for
Mental
                    According to VBA policy in effect prior to December 21, 2012, whenever an
Disorders           RVSR denied a Gulf War veteran service connection for any mental
                    disorder, the RVSR had to consider whether the veteran was entitled to
                    receive mental health treatment.

                    In February 2011, VBA updated its Rating Board Automation 2000, a
                    computer application designed to assist RVSRs in preparing disability
                    ratings. The application provides a pop-up notification, known as a tip
                    master, to remind staff to consider Gulf War veterans’ entitlement to mental
                    health care treatment when denying service connection for a mental disorder.
                    This pop-up notification does not generate if a previous decision did not
                    address entitlement to mental health services and a mental condition is not
                    part of the current claim.

Finding 2           Gulf War Veterans Did Not Always Receive Entitlement Decisions
                    for Mental Health Treatment

                    VSC staff did not properly address whether 8 of 30 Gulf War veterans were
                    entitled to receive treatment for mental disorders, according to the policy in
                    effect at the time of our November 2012 inspection. As a result, veterans
                    may be unaware of their possible entitlement to treatment for mental
                    disorders and may not get the care they need. Following are summaries of
                    the eight errors we identified.

                    	 Four errors occurred when RVSRs did not address veterans’ entitlement
                       to treatment for mental disorders on current decisions when previous
                       decisions also did not address the issue.
                    	 Two errors occurred when RVSRs did not address veterans’ entitlement
                       to mental health treatment in current disability decisions—in spite of
                       pop-up notifications reminding them to do so.
                    	 Two errors occurred when RVSRs correctly addressed the entitlement
                       decisions, but did not formally annotate them on the decision documents.

                    In December 2012, VBA modified its policy to state that RVSRs no longer
                    have to address Gulf War veterans’ entitlement to mental health care in all
                    cases. RVSRs have to consider this entitlement when the veteran’s mental
                    health benefit can be granted based on diagnosis of a mental disorder within
                    2 years of separation from military service. Because this policy modification
                    became effective after we concluded our inspection, we cannot determine
                    whether the change might have affected the number of errors we identified.
                    Therefore, we made no recommendation for improvement.

VA Office of Inspector General                                                                 10
                                                                   Inspection of VARO Roanoke, VA




                     IV. Public Contact
Outreach to          In November 2009, VA developed a 5-year plan to end homelessness among
Homeless             veterans by assisting every eligible homeless veteran willing to accept
Veterans             services. VBA generally defines “homeless” as lacking a fixed, regular, and
                     adequate nighttime residence.

                     Congress mandated that at least one full-time employee oversee and
                     coordinate homeless veterans programs at each of the 20 VAROs that VA
                     determined to have the largest veteran populations. VBA guidance, last
                     updated in September 2002, directed that coordinators at the remaining
                     VAROs be familiar with requirements for improving the effectiveness of
                     VARO outreach to homeless veterans.          These requirements include
                     developing and updating a directory of local homeless shelters and service
                     providers. Additionally, the coordinators should attend regular meetings
                     with local homeless service providers, community government, and
                     advocacy groups to provide information on VA benefits and services.

 Finding 3           Oversight of Homeless Outreach Program Needs Improvement

                     The Roanoke VARO has jurisdiction over veterans residing in the
                     Commonwealth of Virginia and the District of Columbia and is 1 of the
                     20 VAROs designated to have a full-time Homeless Veterans Outreach
                     Coordinator (HVOC). The HVOC did not regularly contact or provide
                     information to homeless shelters and service providers to all areas under
                     VARO jurisdiction as required by VBA policy and local HVOC performance
                     standards. Because VARO managers were unaware of VBA’s policy, they
                     did not provide adequate oversight of the homeless veterans outreach
                     program. As a result, homeless shelters and service providers may not be
                     aware of available VA benefits and services.

                     Our review confirmed the HVOC maintained a collaborative partnership
                     with homeless coordinators at VA Medical Centers; however, contact with
                     homeless shelters and service providers was limited to Roanoke and
                     Richmond, Virginia. Further, VARO managers were unaware that staff had
                     not contacted the majority of the homeless shelters and service providers
                     within the VARO’s jurisdiction and had not updated their homeless resource
                     directory as required. Although the HVOC provided supervisors monthly
                     handwritten calendars of outreach activities, details such as the names,
                     locations, or contact numbers of the facilities visited were lacking.

                     Had management provided adequate oversight of the VARO’s outreach
                     efforts, it may have realized staff were not contacting all homeless shelters
                     and service providers within the VARO’s jurisdiction. Further, management
                     may have also determined shelters and service providers were not receiving
                     information on VA benefits and services available to homeless veterans.

 VA Office of Inspector General                                                                11
                                                                 Inspection of VARO Roanoke, VA




                    VBA also needs performance measures for its homeless veterans outreach
                    program. Without such measures, we cannot fully assess the effectiveness of
                    its outreach activities.

                    Recommendation
                    6. 	 We recommend the Roanoke VA Regional Office Director develop and
                         implement a plan to ensure staff update the resource directory and
                         regularly contact and provide outreach to homeless shelters and service
                         providers within the VA Regional Office’s jurisdiction.

Management          The VARO Director concurred with our recommendations. Subsequent to
Comment             our inspection, the VARO filled its full-time HVOC position vacancy, which
                    had existed since the second quarter of FY 2013. In April 2013, the HVOC
                    mailed information on available VA benefits and services to 118 homeless
                    shelters and service providers within the VARO’s jurisdiction. The HVOC
                    is now required to contact homeless shelters and service providers annually.
                    Since appointment, the HVOC has travelled to the Richmond and Hampton
                    VA Medical Centers and conducted homeless outreach at the Salvation
                    Army and the Union Mission. Additional outreach events were scheduled to
                    take place in Northern Virginia in June 2013.

OIG Response        The Director’s comments         and    actions   are   responsive   to   the
                    recommendations.




VA Office of Inspector General                                                               12
                                                                Inspection of VARO Roanoke, VA


Appendix A          VARO Profile and Scope of Inspection
Organization        The Roanoke VARO administers a variety of services and benefits, including
                    compensation and pension benefits; vocational rehabilitation and
                    employment assistance; specially adapted housing grants; benefits
                    counseling; and outreach to homeless, elderly, minority, and women
                    veterans.

Resources           As of September 22, 2012, the Roanoke VARO had a staffing level of
                    453 full-time employees. Of this total, the VSC had 310 employees
                    assigned.

Workload            As of September 30, 2012, the VARO reported 27,827 pending
                    compensation claims.   The average time to complete claims was
                    332.3 days—102.3 days more than the FY 2012 national target of 230.

Scope               We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders.

                    Our review included 30 (4 percent) of 739 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of
                    October 1, 2012. We provided VARO management with 709 claims
                    remaining from our universe of 739 for its review. As follow-up to our
                    national audit, we sampled 40 temporary 100 percent disability evaluations
                    from the SharePoint list VBA provided to the VARO as part of its national
                    review. We also reviewed 30 (40 percent) of 75 TBI-related disability
                    claims that the VARO completed from July through September 2012.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require VAROs to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.

                    We assessed the 11 mandatory SAOs the VARO completed in FY 2012. We
                    examined 30 completed claims processed for Gulf War veterans from July
                    through September 2012 to determine whether VSC staff addressed
                    entitlement to mental health treatment in the rating decision documents as
                    required. Further, we assessed the effectiveness of the VARO’s homeless
                    veterans outreach program by reviewing its directory of homeless shelters


VA Office of Inspector General                                                             13
                                                                   Inspection of VARO Roanoke, VA


                    and service providers and determining whether staff regularly attended
                    meetings and provided information on VA benefits and services.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We also
                    assessed whether the data contained obvious duplication of records,
                    alphabetic or numeric characters in incorrect fields, or illogical relationships
                    among data elements. Further, we compared veterans’ names, file numbers,
                    Social Security numbers, VARO numbers, dates of claim, and decision dates
                    as provided in the data received with information contained in the claims
                    folders we reviewed.

                    Our testing of the data disclosed that they were sufficiently reliable to meet
                    our inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders at the Roanoke VARO did not
                    disclose any problems with data reliability.

                    VBA’s Systematic Technical Accuracy Review program information as of
                    September 2012 was not reviewed during the scope of this inspection nor
                    was the information relied upon to draw the conclusions in this report.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation. We planned and performed the inspection to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for our
                    findings and conclusions based on our inspection objectives. We believe that
                    the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our inspection objectives.




VA Office of Inspector General                                                                   14
                                                                          Inspection of VARO Roanoke, VA


Appendix B          Inspection Summary

Table 2 reflects the operational activities inspected, applicable criteria, and whether or not we
had reasonable assurance of VARO compliance.


                         Table 2. Roanoke VARO Inspection Summary
                                                                                                 Reasonable
 Five Operational                                   Criteria                                     Assurance of
     Activities                                                                                  Compliance
    Inspected
                                                                                                 Yes     No
                                       Disability Claims Processing
1. Temporary
                    Determine whether VARO staff properly processed temporary 100
   100 Percent
                    percent disability evaluations. (38 CFR 3.103(b)) (38 CFR 3.105(e)) (38
   Disability                                                                                             X
                    CFR 3.327) (M21-1 MR Part IV, Subpart ii, Chapter 2, Section J) (M21-
   Evaluations
                    1MR Part III, Subpart iv, Chapter 3, Section C.17.e)

2. Traumatic        Determine whether VARO staff properly processed claims for all
   Brain Injury     disabilities related to in-service TBI. (FL) 08-34 and FL 08-36) (Training            X
   Claims           Letter 09-01)
                                          Management Controls
3. Systematic       Determine whether VARO staff properly performed formal analyses of
   Analysis of      their operations through completion of SAOs. (M21-4, Chapter 5)               X
   Operations
                                         Eligibility Determinations
4 Gulf War          Determine whether VARO staff properly processed Gulf War veterans’
  Veterans’         claims, considering entitlement to medical treatment for mental illness.
  Entitlement to    (38 USC 1702) ( M21-1MR Part IX, Subpart ii, Chapter 2) (M21-1MR Part                 X
  Mental Health     III, Subpart v, Chapter 7) (FL 08-15) (38 CFR 3.384) (38 CFR 3.2)
  Treatment
                                              Public Contact
5. Homeless         Determine whether VARO staff provided effective outreach services.
   Veterans         (Public Law 107-05) (VBA Letter 20-02-34) (VBA Circular 27-91-4)
   Outreach         (FL 10-11) (M21-1, Part VII, Chapter 6) (M27-1, Part II, Chapter 2)                   X
   Program


  Source: VA OIG
 CFR=Code of Federal Regulations, FL= Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                           15
                                                                                  Inspection of VARO Roanoke, VA


Appendix C              VARO Director’s Comments


                   Department of
                   Veterans Affairs
                                                                       Memorandum
          Date:       June 10, 2013 

          From:       Director, VA Regional Office, Roanoke (314) 

          Subj:       Inspection of the VA Regional Office, Roanoke, Virginia  

            To:       Assistant Inspector General for Audits and Evaluations (52) 


                  1.	  The Roanoke VA Regional Office’s comments are attached regarding the OIG Draft 
                       Report:  Inspection of the VA Regional Office, Roanoke, Virginia. 

                  2.	  Please refer questions to Mr. Keith Wilson at (540) 597‐1122.  


                      (original signed by:)
                      Keith M. Wilson
 
                      Director
 


                      Attachment 




VA Office of Inspector General                                                                               16
                                                                  Inspection of VARO Roanoke, VA


                                                                                     Attachment

    OIG Recommendation 1: We recommend the Roanoke VA Regional Office Director
    develop and implement a plan to ensure claims processing staff input suspense diaries in the
    electronic record as required.

    Roanoke RO Response: Concur.

    Action Taken by VARO: During the November 2012 inspection, 40 cases from the lists of
    cases needing corrective actions that VBA provided to the Roanoke VARO were reviewed
    by OIG staff. OIG’s report noted that Roanoke VARO staff accurately reported taking
    actions, such as inputting suspense diaries or scheduling reexaminations, on all 40 cases.
    However, when OIG compared VBA’s national review lists with their data on temporary
    100 percent disability evaluations, they found six cases involving prostate cancer that VBA
    had not identified.

    Subsequent to OIG’s review, VBA developed and implemented a plan to ensure claims
    processing staff input suspense diaries in the electronic record as required. Under this plan,
    End product (EP) 684s batch generate every two weeks for any 100% evaluation that does
    not have a future exam diary control, P&T status reflected in SHARE, or EP 310 pending.

    In January 2013 and May 2013, Compensation Service provided guidance to the field
    regarding the review of the temporary 100 percent disability evaluations. Since February
    2013, the Veterans Service Center’s Management Analyst (MA) has been conducting
    bi-weekly reviews of newly batch generated EP 684s to ensure proper processing, reviewing
    for any error trends, and taking action as needed. This review shows that since March 2013,
    no EP 684s have generated for the station due to a suspense diary not being entered in the
    electronic record.

    This review has shown that the majority of EP 684s that have generated since
    February 2013 were not needed as a rating decision was of record reducing the
    100% disability to a lower evaluation at a future date, an EP 600 was pending for a proposal
    to reduce, or a 100% evaluation had been assigned under a rating EP that was continued at
    authorization for an at once examination of the 100% disability.

    Additionally, subsequent to OIG’s inspection, the Roanoke VARO is now rating in VBA’s
    newly launched web-based technology, VBMS-R. This rating application requires the
    rating specialist to input a date when VSC staff must schedule a reexamination or declare
    the disability static before a rating decision can be generated. Furthermore, in-process
    reviews and the Quality Review Team (QRT) provide a second level of assurance that
    decision-makers are making the correct decision when determining whether or not to
    schedule a routine future examination.

    The above plans now in place provide oversight to ensure claims processing staff input
    suspense diaries in the electronic record as required.




VA Office of Inspector General                                                                 17
                                                                 Inspection of VARO Roanoke, VA


    OIG Recommendation 2: We recommend the Roanoke VA Regional Office Director
    develop and implement a plan to ensure claims processing staff timely schedule medical
    reexaminations when the reminder notifications are received.

    Roanoke RO Response: Concur.

    Action Taken by VARO: The VSC transitioned into the Organizational Model on
    November 6, 2012. The transition had impacted the station’s workflow and oversight of the
    workload at the time of OIG’s inspection as employees were reassigned to teams,
    underwent significant training, became familiar with new workflow procedures using
    segmented lanes, and experienced physical changes of location due to new team
    assignment.

    The station’s workload management plan (WMP) was revised in January 2013 to reassign
    responsibility for reviewing the pending message work items, which include work items to
    determine whether routine future examinations should be scheduled. The station’s Express
    teams have been assigned responsibility by digit for the 800 series work-items. These teams
    also process the station’s EP 310 (routine future examinations) by digit. Each Express
    Team Coach has the responsibility to run the reports monthly and take appropriate action.

    The above workload management plan provides the oversight to ensure medical
    examinations are timely scheduled when reminder notifications are received.

    OIG Recommendation 3: We recommend the Roanoke VA Regional Office Director
    develop and implement a plan to ensure claims processing staff take timely actions to
    finalize reductions in benefits.

    Roanoke RO Response: Concur.

    Action Taken by VARO: The VSC transitioned into the Organizational Model on
    November 6, 2012. The transition had impacted the station’s workflow and oversight of the
    workload at the time of OIG’s inspection as employees were reassigned to teams,
    underwent significant training, became familiar with new workflow procedures using
    segmented lanes, and experienced physical changes of location due to new team
    assignment.

    The station’s workload management plan (WMP) was revised in January 2013 to designate
    areas of responsibility for processing timely actions to finalize reductions in benefits. In
    addition, the Veterans Service Center MA has been conducting bi-weekly reviews to ensure
    proper processing, review for any error trends, and take action as needed. Through this
    newly implemented oversight procedure, any past due EP 600 is immediately identified, and
    notification is sent to the appropriate Coach to have action taken.

    The above workload management plan and additional oversight will ensure that claims
    processing staff take timely actions to finalize reductions in benefits.




VA Office of Inspector General                                                               18
                                                                Inspection of VARO Roanoke, VA


    OIG Recommendation 4: We recommend the Roanoke VA Regional Office Director
    develop and implement a plan to review for accuracy the 709 temporary 100 percent
    disability evaluations remaining from our inspection universe and take appropriate actions.

    Roanoke RO Response: Concur.

    Action Taken by VARO: The Roanoke Regional Office completed the original tasking of
    processing the 810 Work Items that were established in response to OIG’s Audit of
    100     Percent    Disability  Evaluations    (Report   Number     09-03359-71, issued
    January 24, 2011). As noted in OIG’s draft inspection report for Roanoke VARO, there
    was a discrepancy found between OIG’s data on temporary 100 percent disability
    evaluations and those VBA had identified to VAROs.

    Subsequent to OIG’s review, VBA developed and implemented a plan to ensure all
    temporary 100 percent disability claims were put under proper control to prevent potential
    overpayment. The Veterans Service Center MA has been conducting bi-weekly reviews of
    newly batch generated EP 684s to ensure proper processing, review for any error trends, and
    take action as needed. This review has shown that the majority of EP 684s that have
    generated since February 2013 were not needed as a rating decision was of record reducing
    the 100% disability to a lower evaluation at a future date. An EP 600 was pending for a
    proposal to reduce, or a 100% evaluation had been assigned under a rating EP (i.e. – 010,
    110, 020 series) that was continued at authorization for an at once examination of the
    100% disability.

    The station has confirmed that Roanoke has completed review of 355 of the 709 cases and
    has taken appropriate action on all cases. The station will have the remaining reviews and
    necessary action completed by September 30, 2013.

    OIG Recommendation 5: We recommend the Roanoke VA Regional Office Director
    develop and implement a plan to ensure effective second signature reviews of traumatic
    brain injury claims decisions.

    Roanoke RO Response: Concur.

    Action Taken by VARO: The Roanoke VARO is compliant with VBA policy on
    processing traumatic brain injury claims.         We do, however, concur with OIG’s
    recommendation that an additional level of oversight should be implemented to ensure
    effective second signature reviews of traumatic brain injury (TBI) claims decisions.

    TBI second signature reviews are completed by the Rating Quality Review Specialists
    (RQRSs) on the QRT. A spreadsheet of all TBI reviews is maintained on a shared drive in
    order to track reviews, identify error trends, and validate when an RVSR is ready to be
    released from second signature reviews for TBI claims.

   The QRT Coach and Assistant Coaches conduct monthly quality review of the local aspen
   reviews completed by the RQRS. This regular monthly review has been amended to now
   include an additional review of at least one TBI 2nd signature review completed for each
   RQRS.

VA Office of Inspector General                                                              19
                                                               Inspection of VARO Roanoke, VA


   The additional review of TBI second signature actions provides additional assurance that
   claims processing staff has effective second signature reviews of TBI claims.

   OIG Recommendation 6: We recommend the Roanoke VA Regional Office Director
   develop and implement a plan to ensure staff update the resource directory and regularly
   contact and provide outreach to homeless shelters and service providers within the VA
   Regional Office’s jurisdiction.

   Roanoke RO Response: Concur.

   Action Taken by VARO: The Roanoke VARO has a full-time Homeless Veterans
   Outreach Coordinator (HVOC) as required by PL 107-95; however, the Public Contact
   Coach was the acting HVOC for a portion of the 2nd quarter of FY13, as the previous HVOC
   left the RO.

   Subsequent to OIG’s inspection, the full-time HVOC position has been filled, and the
   resource directory has been updated to include all contact information. The Public Contact
   Coach has also held meetings with the new HVOC to emphasize the importance of regular
   and timely updates to this listing.

   OIG’s report found that the HVOC maintained a collaborative partnership with homeless
   coordinators at VA Medical Centers; however, contact with homeless shelters and service
   providers was limited to Roanoke and Richmond, Virginia.

   To address this finding, the HVOC sent letters to the 118 homeless shelters and service
   providers within the VA Regional Office’s jurisdiction in April 2013 to provide information
   on VA benefits and services available to homeless veterans, and request updated contact
   information for the shelter/provider. The HVOC at the Roanoke VARO will now contact the
   available homeless shelters and service providers within the VA Regional Office’s
   jurisdiction annually to ensure continued contract and outreach.

   During FY2012, there were 52.5 hours of homeless outreach events completed, with a total
   of 483 veterans seen and 19 claims taken. Subsequent to OIG’s inspection the newly
   appointment HVOC, traveled to Richmond VA Medical Center and Hampton VA Medical
   Center, where homeless outreach was conducted at the Salvation Army and Union Mission.
   There is also planned homeless outreach in northern Virginia from June 25, 2013 to
   June 27, 2013.




VA Office of Inspector General                                                             20
                                                         Inspection of VARO Roanoke, VA


Appendix D          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Nora Stokes, Director
                                         Kristine Abramo
                                         Madeline Cantu
                                         Danny Clay
                                         Kelly Crawford
                                         Lee Giesbrecht
                                         Kerri Leggiero-Yglesias
                                         Suzanne Murray
                                         Nelvy Viguera Butler
                                         Mark Ward




VA Office of Inspector General                                                       21
                                                                 Inspection of VARO Roanoke, VA


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Southern Area Director
                    VA Regional Office Roanoke Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                        Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                        Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Tim Kaine, Mark R. Warner
                    U.S. House of Representatives: Eric Cantor, Gerry Connolly,
                    J. Randy Forbes, Bob Goodlatte, Morgan Griffith, Robert Hurt, Jim Moran,
                    Scott Rigell, Bobby Scott, Rob Wittman, Frank Wolf




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                              22
